Department of Health and Human Services
                     OFFICE OF 

                INSPECTOR GENERAL 





   THE MEDICARE CONTRACTOR’S 

          PAYMENTS IN

    JURISDICTIONS 6 AND 8 FOR 

    FULL VIALS OF HERCEPTIN

     WERE OFTEN INCORRECT



    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov. 
                                            




                                                      Sheri L. Fulcher

                                                 Regional Inspector General 


                                                        December 2012

                                                        A-05-11-00112 

                       Office of Inspector General
                                        https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits
with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations.
These assessments help reduce waste, abuse, and mismanagement and promote economy and efficiency
throughout HHS.
Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues. These
evaluations focus on preventing fraud, waste, or abuse and promoting economy, efficiency, and
effectiveness of departmental programs. To promote impact, OEI reports also present practical
recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud
and misconduct related to HHS programs, operations, and beneficiaries. With investigators working in
all 50 States and the District of Columbia, OI utilizes its resources by actively coordinating with the
Department of Justice and other Federal, State, and local law enforcement authorities. The
investigative efforts of OI often lead to criminal convictions, administrative sanctions, and/or civil
monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support for
OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and abuse cases
involving HHS programs, including False Claims Act, program exclusion, and civil monetary penalty
cases. In connection with these cases, OCIG also negotiates and monitors corporate integrity
agreements. OCIG renders advisory opinions, issues compliance program guidance, publishes fraud
alerts, and provides other guidance to the health care industry concerning the anti-kickback statute and
other OIG enforcement authorities.
                           Notices



      THIS REPORT IS AVAILABLE TO THE PUBLIC
                at https://oig.hhs.gov



Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report
represent the findings and opinions of OAS. Authorized officials of the
HHS operating divisions will make final determination on these
matters.
                                   EXECUTIVE SUMMARY


BACKGROUND 


Herceptin, also known as trastuzumab, is a Medicare-covered drug used to treat breast cancer
that has spread to other parts of the body. Herceptin comes in a multiuse vial of 440 milligrams.
A multiuse vial contains more than one dose of medication and is labeled as such by the
manufacturer. The manufacturer supplies the drug in a carton containing a multiuse vial of 440
milligrams of Herceptin and one 20-milliliter vial of bacteriostatic water for injection (BWFI)
containing a solution of 1.1 percent benzyl alcohol as a preservative. A vial of Herceptin, when
reconstituted with BWFI and stored properly, can be used for up to 28 days.

For multiuse vials, Medicare pays only for the amount administered to a beneficiary and does not
pay for any discarded drug. Therefore, a payment for an entire multiuse vial is likely to be
incorrect. This audit is part of a nationwide review of the drug Herceptin. The pilot of these
reviews found that the Medicare contractor’s payments for full vials of Herceptin were often
incorrect.

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services administers the program.

Effective January 1, 2007, National Government Services became the Medicare contractor in
Illinois and Wisconsin (Jurisdiction 6) and Indiana and Michigan (Jurisdiction 8). During our
audit period (January 1, 2008, through December 31, 2010), 18,027 line items for Herceptin
totaling approximately $31.9 million were processed in these States. Of these 18,027 line items,
713 totaling approximately $2 million had unit counts with multiples of 44 (44, 88, 132, etc.) that
represent billings equivalent to entire multiuse vials. In this audit, we did not review entire
claims; rather, we reviewed the specific line items within the claims that met these criteria.

OBJECTIVE

Our objective was to determine whether Medicare payments that National Government Services
made to providers in Jurisdictions 6 and 8 for full vials of Herceptin were correct.

SUMMARY OF FINDINGS

Most Medicare payments that National Government Services made to providers in Jurisdictions
6 and 8 for full vials of Herceptin were incorrect. Specifically, of the 713 selected line items,
558 (78 percent) were incorrect and included overpayments totaling $682,748 or more than one-
third of total dollars reviewed. These providers had not identified or refunded these
overpayments by the beginning of our audit. Providers refunded overpayments on 1 line item
totaling $203 before our fieldwork. The 154 remaining line items were correct.

On each of the 558 incorrect line items, the providers reported the units of service for the entire
content of 1 or more vial(s), each containing 440 milligrams of Herceptin, rather than reporting
the units of service for the amount actually administered. The providers attributed the incorrect
                                                  i
payments to clerical errors and to billing systems that could not prevent or detect the incorrect
billing of units of service. National Government Services made these incorrect payments
because neither the Fiscal Intermediary Standard System nor the Common Working File had
sufficient edits in place during our audit period to prevent or detect the overpayments.

RECOMMENDATIONS

We recommend that National Government Services:

   	 recover the $682,748 in identified overpayments,

   	 implement or update system edits that identify for review multiuse-vial drugs that are
      billed with units of service equivalent to the dosage of an entire vial(s), and

   	 use the results of this audit in its provider education activities.

NATIONAL GOVERNMENT SERVICES COMMENTS

In written comments on our draft report, National Government Services agreed with our findings
and recommendations. National Government Services stated that it had received the claims list
identifying $682,748 in overpayments and had cancelled or adjusted the claim lines accordingly
with recoveries to be confirmed by its Overpayment Recovery unit. Additionally, National
Government Services stated that it had implemented a system edit to suspend, for provider
verification, all Herceptin (J9355) claims billed with 44 units or 88 units with dates of service on
or after January 1, 2011. Finally, National Government Services stated that it had published
provider education for the proper billing of Herceptin both on its website as well as its monthly
Medicare letter to providers.

National Government Services’ comments are included in their entirety as the Appendix.




                                                  ii
                                                   TABLE OF CONTENTS


                                                                                                                                       Page


INTRODUCTION.................................................................................................................... 1


      BACKGROUND ..................................................................................................................1

        Medicare Contractors...................................................................................................... 1 

        Claims for Drugs .............................................................................................................1 

        Herceptin......................................................................................................................... 2 

        National Government Services .......................................................................................2 


      OBJECTIVE, SCOPE, AND METHODOLOGY ................................................................2 

        Objective ......................................................................................................................... 2 

        Scope............................................................................................................................... 2 

        Methodology ................................................................................................................... 3 


FINDINGS AND RECOMMENDATIONS .............................................................................3 


      FEDERAL REQUIREMENTS .................................................................................. 4 


      OVERPAYMENTS OCCURRED ON MOST LINE ITEMS REVIEWED .......................4 


      CAUSES OF INCORRECT MEDICARE PAYMENTS .....................................................5 


      RECOMMENDATIONS ......................................................................................................5 


      NATIONAL GOVERNMENT SERVICES COMMENTS .................................................5 


APPENDIX

      NATIONAL GOVERNMENT SERVICES COMMENTS




                                                                      iii
                                                INTRODUCTION


BACKGROUND

Herceptin1 is a Medicare-covered drug used to treat breast cancer that has spread to other parts of
the body. Herceptin comes in a multiuse vial of 440 milligrams. A multiuse vial contains more
than one dose of medication and is labeled as such by the manufacturer. However, for multiuse
vials, Medicare pays only for the amount administered to a beneficiary and does not pay for any
discarded amounts. This audit is part of a nationwide review of the drug Herceptin. The pilot of
these reviews2 found that the Medicare contractor’s payments for full vials of Herceptin were
often incorrect.

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Contractors

CMS contracts with Medicare contractors to, among other things, process and pay Medicare
claims submitted for outpatient services.3 The Medicare contractors’ responsibilities include
determining reimbursement amounts, conducting reviews and audits, and safeguarding against
fraud and abuse. Federal guidance provides that Medicare contractors must maintain adequate
internal controls over automatic data processing systems to prevent increased program costs and
erroneous or delayed payments. To process providers’ claims for outpatient services, the
Medicare contractors use the Fiscal Intermediary Standard System and CMS’s Common
Working File (CWF). The CWF can detect certain improper payments during prepayment
validation.

Claims for Drugs

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains line items that detail each provided service. Providers should
use the appropriate Healthcare Common Procedure Coding System (HCPCS) code for the drug
administered and report units of service in multiples of the units shown in the HCPCS narrative
description.4 Multiuse vials are not subject to payment for discarded amounts of the drug.

1
    Herceptin is Genentech’s registered trademark for the drug trastuzumab.
2
    Report number A-05-10-00091, issued July 10, 2012.
3
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. In this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC, whichever is
applicable.
4
    HCPCS codes are used throughout the health care industry to standardize coding for medical procedures.
                                                           1

Multiuse vials are typically used for more than one date of service and can be stored for up to 28
days. Therefore, a payment for an entire multiuse vial is likely to be incorrect.

Herceptin

Herceptin is a monoclonal antibody, one of a group of drugs designed to attack specific cancer
cells. The manufacturer supplies the drug in a carton containing a multiuse vial of
440 milligrams of Herceptin and one 20-milliliter vial of bacteriostatic water for injection
(BWFI) containing a solution of 1.1 percent of benzyl alcohol as a preservative. A vial of
Herceptin, when reconstituted with BWFI and stored properly, can be used for up to 28 days.
When a patient is allergic to benzyl alcohol, sterile water without a preservative should be used
and any unused portion of the mixture discarded. The HCPCS code for Herceptin is J9355, with
a narrative description of “injection, trastuzumab 10mg.” An entire multiuse vial of 440
milligrams of reconstituted Herceptin when administered would be reported as 44 units for
Medicare billing.

National Government Services

Effective January 1, 2007, National Government Services became the Medicare contractor in
Illinois and Wisconsin (Jurisdiction 6) and Indiana and Michigan (Jurisdiction 8). During our
audit period (January 1, 2008, through December 31, 2010), 18,027 line items were processed
for Herceptin in these States.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicare payments that National Government Services
made to providers in Jurisdictions 6 and 8 for full vials of Herceptin were correct.

Scope

During our audit period, National Government Services processed 18,027 outpatient Part B
service line items of Herceptin totaling approximately $31.9 million. Of these 18,027 line items,
2,718 had unit counts with multiples of 44 (44, 88, 132, etc) that represent billings equivalent to
entire multiuse vials. Of these 2,718, we reviewed 7135 line items totaling approximately
$2 million. The remaining 2,005 line items were reviewed and reported on in report
A-05-10-00091.

We limited our review of National Government Services’ internal controls to those that were
applicable to the selected payments because our objective did not require an understanding of all
internal controls over the submission and processing of claims. Our review allowed us to
establish reasonable assurance of the authenticity and accuracy of the data obtained from the
National Claims History file, but we did not assess the completeness of the file.
5
 One of the 713 line items was included because it exceeded $10,000. While this did not represent a billing
equivalent to a full vial, this high-dollar item was included because it was likely to be incorrect.
                                                         2

Our fieldwork was conducted from October 2010 through July 2012 and included contacting
National Government Services in Indianapolis, Indiana, and the 77 providers in Illinois, Indiana,
Michigan, and Wisconsin that received the selected Medicare payments.

Methodology

To accomplish our objective, we:

   	 reviewed applicable Federal laws, regulations, and guidance;

   	 used CMS’s National Claims History file to identify outpatient line items in which
      payments were made for HCPCS code J9355 (Herceptin);

   	 identified the 713 line items in our scope that National Government Services paid to 77
      providers;

   	 contacted the 77 providers that received Medicare payments associated with the selected
      line items to determine whether the information conveyed in the selected line items was
      correct and, if not, why the information was incorrect;

   	 reviewed documentation that the providers furnished to verify whether each selected line
      item was billed correctly; specifically, we reviewed documentation to support:

           o	 the medical condition of the beneficiary in determining the necessity of the
              medication,
           o	 a physician’s orders for medication,
           o	 that the medication was administered, and
           o	 the type of solution used to reconstitute the Herceptin (BWFI containing
              1.1 percent benzyl alcohol or sterile water);

   	 coordinated the calculation of overpayments with National Government Services; and

   	 discussed the results of our review with National Government Services on               

      August 8, 2012. 


We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Most Medicare payments that National Government Services made to providers in Jurisdictions
6 and 8 for full vials of Herceptin were incorrect. Specifically, of the 713 selected line items,
558 (78 percent) were incorrect and included overpayments totaling $682,748, or more than one-
                                                3

third of total dollars reviewed. These providers had not identified or refunded these
overpayments by the beginning of our audit. Providers refunded overpayments on 1 line item
totaling $203 before our fieldwork. The 154 remaining line items were correct.

On each of the 558 incorrect line items, the providers reported the units of service for the entire
content of 1 or more vial(s), each containing 440 milligrams of Herceptin, rather than reporting
the units of service for the amount actually administered. The providers attributed the incorrect
payments to clerical errors and to billing systems that could not prevent or detect the incorrect
billing of units of service. National Government Services made these incorrect payments
because neither the Fiscal Intermediary Standard System nor the CWF had sufficient edits in
place during our audit period to prevent or detect the overpayments.

FEDERAL REQUIREMENTS

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 23,
section 20.3, states: “providers must use HCPCS codes … for most outpatient services.”
According to chapter 17, section 70, of the Manual, when a provider is billing for a drug
“[w]here HCPCS is required, units are entered in multiples of the units shown in the HCPCS
narrative description. For example, if the description for the code is 50 mg, and 200 mg are
provided, units are shown as 4 ….”

Chapter 17, section 40, of the Manual also states: “Multi-use vials are not subject to payment for
discarded amounts of drug ….” Finally, chapter 1, section 80.3.2.2, of the Manual states: “In
order to be processed correctly and promptly, a bill must be completed accurately.”

OVERPAYMENTS OCCURRED ON MOST LINE ITEMS REVIEWED

Providers reported incorrect units of service on 558 (78 percent) of the 713 line items reviewed,
resulting in overpayments totaling $682,748 (34 percent) of the $2 million total dollars reviewed.
Providers billed Medicare for the entire vial containing 440 milligrams of Herceptin, rather than
billing only for the amount actually administered.

For example, one provider administered 253 milligrams of Herceptin to a patient and billed for
44 units of service (440 milligrams). Based on the HCPCS description of Herceptin (injection,
trastuzumab, 10 milligrams), the number of units to be reported for 253 milligrams is 26.6 This
error occurred on 15 separate occasions for 1 patient; as a result, National Government Services
paid the provider $34,401 when it should have paid $20,288, an overpayment of $14,113. In a
separate instance, this same patient had one date of service with 528 units of service (5,280
milligrams) billed for 253 milligrams of Herceptin administered. As a result of this error,
National Government Services paid the provider $34,316 when it should have paid $1,393, an
overpayment of $32,923.



6
  If the drug dose used in the care of a patient is not a multiple of the HCPCS code dosage descriptor, the provider
rounds to the next highest unit based on the HCPCS long descriptor to report the dose.

                                                          4

CAUSES OF INCORRECT MEDICARE PAYMENTS

The providers attributed the incorrect payments to clerical errors and to billing systems that
could not prevent or detect the incorrect billing of units of service. National Government
Services made these incorrect payments because neither the Fiscal Intermediary Standard System
nor the CWF had sufficient edits in place to prevent or detect the overpayments. In effect, CMS
relied on beneficiaries to review their Medicare Summary Notice7 and disclose any
overpayments.

RECOMMENDATIONS

We recommend that National Government Services:

    	 recover the $682,748 in identified overpayments,

    	 implement or update system edits that identify for review multiuse-vial drugs that are
       billed with units of service equivalent to the dosage of an entire vial(s), and

    	 use the results of this audit in its provider education activities.

NATIONAL GOVERNMENT SERVICES COMMENTS

In written comments on our draft report, National Government Services agreed with our findings
and recommendations. National Government Services stated that it had received the claims list
identifying $682,748 in overpayments and had cancelled or adjusted the claim lines accordingly
with recoveries to be confirmed by its Overpayment Recovery unit. Additionally, National
Government Services stated that it had implemented a system edit to suspend, for provider
verification, all Herceptin (J9355) claims billed with 44 units or 88 units with dates of service on
or after January 1, 2011. Finally, National Government Services stated that it had published
provider education for the proper billing of Herceptin both on its website as well as its monthly
Medicare letter to providers.

National Government Services’ comments are included in their entirety as the Appendix.




7
  The Medicare contractor sends a Medicare Summary Notice—an explanation of benefits—to the beneficiary after
the provider files a claim for services. The notice explains the services billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.

                                                         5

APPENDIX 

                                                                                                                Page 10f2
APPENDIX: NATIONAL GOVERNMENT SERVICES COMMENTS



..,, LNational Cl!vernment
   }OI"     services.                                                                        Medicare
    N(ltionol Gowrnment Services, Inc.
    8 115 Kn lle ROild
    lndianJpolis,lndia na 46250- 1936
    A eMS COli/rafted Agml




    October 29, 2012                                                                           REVISED


    Ms. Sheri Fulcher
    Regional Inspector General for Audit Services
    Office of Inspector General
    Office of Audit Services, Region V
    233 North Michigan Avenue, Suite 1360
    Chicago,IL 60601

    Report Number: A-05-11-00112

    Dear Ms. Fulcher,

    The following represents our response to the comments made in your report dated September 14,

    2012:

    Becgmmendatiqn ! - Recgyer the $682 748 jn jdentified gyemayment§
    The claims listing has been reviewed and worked accordingly. AE required, claims have been cancelled or
    adjusted. The recoveries have been confirmed by the NGS Overpayment Recovery unit to ensure
    completion. No fiuther action is required.

    NOTE: There are workloads included in the OIG review that have since transitioned from NGS. This
    includes the transition of J8 (00130 & 00452).


    ReCOmmendation 2 Implement or update system edits that identify for revi ew multiuse-vi al
    drugs that are billed with units of service equivalent to the dosage of an entire vial(s)

    The edits for the Herceptin (J9355) have been implemented and was effective on October 1, 2012 for
    claims submitted "With dates of service on or after January 1, 2011. Claims "Will suspend "With 7HERC in
    these regions if they have 44 units or 88 units. The claims "Will be 'Returned to the Provider' by the Claims
    unit asking for verification of units billed. If correct, the providers should enter "J9355 UNITS VERIFIED
    AS CORRECT" in the remarks section of the claim. Ifthe claims have been 'Returned to the Provider',
    and are resubmitted "With the above remark, the edit will be bypassed and claim "Will pay. Ifthe units are
    incorrect and the provider fixes them, it should not hit the edit upon resubmission. Reason Ccxle 7HERC
    'Nill be used.


    Becqmmendatjon 3 - JI§e tbe re§JJlt§ oftbj§ audit jn jt§ mmjder edJlqtjop actjyjtje§

    Provider Outreach and Education has completed the education required for Herceptin. This was published
    on the web on August 1, 2012. In addition, this was included in the September 2012 MMR. No additional
    questions have been received since the publication.



                                                                                                   CAlsJ
                           Page 20f2




Sincerely YOUB,

l sI Sharon Weddel

Sharo n Wedde l,
Di rector NGS Operations
